No. 21A85

In the Supreme Court of the United States
_________________

UNITED STATES OF AMERICA,
Applicant,
v.
STATE OF TEXAS, ET AL.,
Respondents.
_______________

ON EMERGENCY APPLICATION TO VACATE STAY OF PRELIMINARY INJUNCTION ISSUED BY THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
________

PROOF OF SERVICE
Pursuant to Supreme Court Rule 29.5, I certify a copy of the Motion for Leave
to File Brief and Brief of Massachusetts, et al., as Amici Curiae in Support of
Applicants was filed electronically through the Court’s e-filing system and hand
delivered on October 18, 2021. Additionally, a copy of the Motion for Leave to File
Brief and Brief of Massachusetts, et al., as Amici Curiae in Support of Applicants was
sent to the following counsel by first class mail, as well as by transmitting a digital
copy by electronic mail:
Judd Edward Stone, II
Office of the Attorney General
Office of the Solicitor General
209 W. 14th Street
Austin, TX 78701
Judd.Stone@oag.texas.gov
Jonathan F. Mitchell
111 Congress Avenue, Suite 400
Austin, TX 78701-0000
jonathan@mitchell.law

Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
Brian.Fletcher@usdoj.gov
SupremeCtBriefs@usdoj.gov
/s/ Amanda Hainsworth
Amanda Hainsworth
Assistant Attorney General
Office of the Massachusetts Attorney General

